No. 20-7407
In the Supreme Court of the United States
ALBERTO SOLAR-SOMOHANO,
Petitioner
v.
THE COCA-COLA COMPANY
UNITED STATES,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit
PETITION FOR REHEARING
/ALBERTO SOLAR-SOMOHANO
Petitioner
(561) 595-8547
solar@coca.life

July 7th, 2021

JUL t 3 2021
no
s

1

PREAMBLE
Pursuant to Rule 44.2 of this Court, Petitioner
ALBERTO SOLAR-SOMOHANO respectfully
moves for rehearing before a full nine-Member due
intervening circumstances

of

a

substantial

controlling effect of this case in appointment clause
challenge question proposed Ryder preserved
denied review before Arthrex decision that did not
address same clause challenge after Court granted
review on the question for nothing at all not Ryder
preserved.

1

The denial of discretionary review was compounded
further when the Government filed waiver although they
intervene at the Federal Court of Appeals in which Petitioner
moved by filing motion for Govt. response but never docket
clerk refusing the motion saying not allowed by rule.
Appendix (A). What rule says not allowed the rule says
motion which means whatever relief it seeks. Thus, also
grounds for rehearing "to other substantial grounds not
previously presented" and related to why rehearing will not
be granted unless response order by the Court in the first
place. Rule 44.3

ll

TABLE OF CONTENTS
PREAMBLE
TABLE OF AUTHORITIES
PETITION FOR REHEARING

iii
1

REASONS GRANTING REHEARING

3

CONCLUSION

4

CERTIFICATION

5
Appendix

Petitioner's Motion for Government's Response
Not filed by the clerk

A

iii
TABLE OF AUTHORITIES
Field v. Clark
143 US 649 (1892)
Ryder v. US,
515 U.S. 177 (1995)
United States v. Arthrex, Inc.
19-1434, June 21st, 2021

3, 4
1, 2, 3, 4
1, 2

1.
PETITION FOR REHEARING
Since as early as 2013 through the years in (17)
oppositions proceedings at the Trial Trademark
Appeal Board (TTAB) Petitioner made the
following constitutional challenge objection:
"pursuant to Ryder v. U.S., 515 US 182 (2003); In
re Alappat, 33 F.2d 1526 (Fed. Circuit 1994) en
banc, interjecting Constitution objection to the
present all related against all USPTO Appeal
Board proceedings panel members consisting of
quorum of Administrative Judges none appointees
of the President as principle officers, thus, Titles
15, USC ยง1067(b) and 35, USC ยง3, are
Unconstitutional"
At the Federal Court of Appeals, Petitioner
declared an appointment clause challenge
proposing the question in reverse why the
appointment clause problem:
'Whether the 2002 Intellectual Property High
Technology Technical Amendments Act be
repealed-the enrolled bill was missing the section
that made the entire act inoperable-that is why
2008 Amendment 35 USC 6/ 15USC 1067 Act
which is why appointment clause problem"

2.
The Federal Court of Appeals certified the
question however later did not decided the question
instead stay the case until Arthrex decision.
On May 17th, 2021, this Court denied review to
the following

Ryder preserve

constitutional

challenge question:
'Whether the 2002 Intellectual Property High
Technology Technical Amendments Act be
repealed-the enrolled bill was missing the section
that made the entire act inoperable-that is why
2008 Amendment 35 USC 6/ 15USC 1067 Act
which is why appointment clause problem"
On June 21st, 2021, this Court decided Arthrex
w/o deciding the question granted review:
"Whether, for purposes of the Appointments Clause
, U.S. Const. Art. II, ยง 2, Cl. 2, administrative
patent judges of U.S. Patent and Trademark Office
are principal officers who must be appointed by the
President with the Senate's advice and consent, or
"inferior Officers" whose appointment Congress
has permissibly vested in a department head."

3.

REASONS GRANTING REHEARING
"We think that one who makes a timely challenge
to the constitutional validity of the appointment
of an officer who adjudicates his case is entitled
to a decision on the merits of the question and
whatever relief may be appropriate if a violation
indeed occurred" Ryder v. US, 515 US 717 (1995)
The Court granting rehearing is bound by Field
v. Clark 143 US 649 (1892) and should answer the
following questions as follow:
Whether the appointment clause problem was
cause for the enrolled bill of 2002 Property High
Technology Technical Amendments Act was not
the engrossed bill passed by both houses.
Whether Field v. Clark 143 US 649 (1892) can nolonger stand if the enrolled bill is not the
engrossed bill that was passed by both houses.
Whether this Court w/o jurisdiction to even issue
any remedy at all for only belonging to Congress
to fix for the law that was passed by Congress
was not the law signed enacted by the President

4.
CONCLUSION
Field v. Clark 143 US 649 (1892) controls the
Ryder preserved appointment clause challenge in
reverse as to why the appointment clause problem
which is why 5 of 4 concluded Administrative
Judges Congress wanted them acting like principle
officer but not appointed by the President when
Congress wanted them to appointed by the
President in the first place.
Filed July 7th, 2021

